No. 19-783

 

IN THE

Supreme Court of the Anited States

NATHAN VAN BUREN,

Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

BRIEF OF THE
MANAGED FUNDS ASSOCIATION
AS AMICUS CURIAE
IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,201 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 1, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
